 Semiannual Report To
 The Congress




October 1, 2006 - March 31, 2007




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
                                    HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 37 reports which identified
$6.8 million in monetary benefits. Work by our Office of Investigations resulted in 9 convictions
by plea agreement, 2 convictions by trial, 9 federal indictments, 2 State charges, 2 local
charges, and 14 referrals accepted for prosecution. Investigative activities also resulted in
$32.6 million in court-ordered fines, restitution, and civil settlements, as well as 17 personnel
actions. Some of our significant results for this period are described below:

•   An Independent Public Accountant, working under our supervision, issued an unqualified
    opinion on the Department of the Treasury’s fiscal year 2006 consolidated financial
    statements. The audit identified three reportable conditions, related to: (1) financial
    management practices at the Internal Revenue Service (IRS), (2) electronic data processing
    controls and information security programs over financial systems, and (3) controls over
    transactions and balances related to the International Assistance Programs. The reportable
    condition related to financial management practices at IRS is considered a material weakness.
    The audit also identified instances of noncompliance with Section 6325 of the Internal
    Revenue Code, the Federal Information Security Management Act, and the Federal Financial
    Management Improvement Act. In addition, there were two potential instances of
    Antideficiency Act violations related to the transactions and activities of the Treasury
    Franchise Fund and Departmental Offices.

•   During fiscal years 2002 through 2005, Treasury’s Office of Foreign Assets Controls (OFAC)
    took enforcement action against approximately 3,800 violators and collected $10.32 million in
    civil penalties. We reported, however, that due to a 5-year statute of limitations (SOL) on
    imposing penalties, OFAC failed to complete enforcement actions during this period for 295
    cases. The potential penalty assessments for these 295 cases totaled $3.87 million. OFAC
    has taken or planned corrective action which is responsive to our audit recommendations.

•   The Office of Management and Budget (OMB) issued OMB M-06-16 which stresses the
    need for federal agencies to take necessary and reasonable precautions to eliminate
    significant vulnerabilities to agency sensitive and personally identifiable information (PII). We
    determined that Treasury had not implemented sufficient safeguards to ensure the
    protection of agency sensitive information, including PII. In responding to our report,
    Treasury stated that its Office of the Chief Information Officer planned in March 2007 to
    assess progress in implementing OMB M-06-16 requirements. We will continue to monitor
    Treasury’s efforts in this area.

•   Working jointly with other Inspectors General, the Office of Investigations Improper Payments
    Initiative (IPI) resulted in the conviction of six individuals who unlawfully obtained federal
    payments from civilian or military retirement, disability, or survivor programs. In addition, the
    initiative has resulted in the arrest of ten individuals, with total restitution exceeding
    $165,000, and recoveries exceeding $46,000. Since its inception in July 2006, the initiative
    has resulted in the identification of more than 90 potential violators who obtained over $6
    million in federal payments. During this period alone, the Office of Investigations opened 57
    cases having a total of 65 potential offenders and approximately $4.5 million in potential
    losses.

•   In November 2006, a senior Treasury official resigned after a Treasury OIG investigation
    determined that the official engaged in sports gambling activities while on official duty,
    misused his Government telephone and computer in the furtherance of his illicit activities, and
    also misused his Government travel charge card.

•   In February 2007, a former BEP employee was sentenced to jail and ordered to pay restitution
    following an investigation that disclosed the individual was in possession of partially printed
    $100 Federal Reserve Notes stolen from BEP’s Eastern Currency Facility in Washington, DC.
A Message From The Inspector General


      I am pleased to present the Department of the Treasury Office of Inspector
General Semiannual Report summarizing our activities for the 6 month period from
October 1, 2006 through March 31, 2007.

       This is the final Semiannual Report I will be submitting as the Inspector General,
as I have resigned my position and will be retiring from federal service as of April 28,
2007. Upon my departure, my deputy, Dennis Schindel, will serve as Acting Inspector
General.

       It has been an honor and privilege to have served as the Inspector General for
the Department of the Treasury for the past 2 years, and before that, as the Inspector
General for the Small Business Administration. I believe that the Inspectors General
throughout the federal government play an essential role in detecting and preventing
waste, fraud and abuse, strengthening internal controls and program management,
ensuring sound financial management and improving information technology and
related security at the departments and agencies where they serve.

       As evidenced by the many audit and investigative activities and
accomplishments described in this Semiannual Report, the Treasury Office of Inspector
General has been very productive and effective over the past 6 months. The credit for
this should go to my dedicated staff of auditors and investigators, as well as my senior
managers. They have always impressed me with their professionalism and hard work.
These accomplishments are even more noteworthy when one takes into consideration
that the Treasury Office of Inspector General is, by far, the smallest Cabinet-level
Inspect orGener  al’
                   sof  fi
                         ce,andourfiscal year 2007 appropriation has prevented us
from being able to fill a number of important positions within the organization. It is my
hope that our fiscal year 2008 appropriation will be sufficient to allow the Office to fill
these critical vacancies and also expand our capacity to oversee the many significant
and diverse Treasury programs. With these additional resources, there is much more
significant work the Office could undertake.

       As I leave my position as the Inspector General, I would also like to express my
appreciation for the support and cooperation that my staff and I have received from
Secretary Paulson, Deputy Secretary Kimmitt, the various members of their senior
staff as well as the Treasury bureaus. The cooperation and open lines of
communication that exist here at Treasury have allowed the OIG to more effectively
carry out its mission. I have every confidence that this very positive working
relationship will continue after my departure.




                                        Harold Damelin
                                        Inspector General
This Page Intentionally Left Blank
                                         TABLE OF CONTENTS



Highlights in Brief

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                1

        OIG Values ..........................................................................................    2
        About Treasury ....................................................................................      2

Treasury Management and Performance Challenges ...........................................                        5

Significant Audits and Evaluations ...................................................................           8

        Financial Management ...........................................................................          8
        Information Technology .........................................................................         11
        Programs and Operations .......................................................................          13

Significant Investigations ................................................................................      19
       Improper Payments Initiative ..................................................................           19
       Other Significant Investigations ..............................................................           22

Other OIG Accomplishments and Activity .........................................................                 29

Statistical Summary .......................................................................................      32

        Summary of OIG Activity.......................................................................           32
        Significant Unimplemented Recommendations ..........................................                     33
        Summary of Instances Where Information Was Refused ............................                          35
        Listing of Audit and Evaluation Reports Issued .........................................                 35
        Audit Reports Issued with Questioned Costs ............................................                  38
        Audit Reports Issued with Recommendations that
           Funds be Put to Better Use ................................................................           38
        Previously Issued Audit Reports Pending Management Decisions
           (over Six Months) .............................................................................       38
        Significant Revised Management Decisions ..............................................                  39
        Significant Disagreed Management Decisions ...........................................                   39
        References to the Inspector General Act as Amended ...............................                       40

Abbreviations ................................................................................................   41
This Page Intentionally Left Blank
                            OVERVIEW OF OIG AND TREASURY

The Department of the Treasury’s Office of Inspector General (OIG) was established pursuant
to the 1988 amendment to the Inspector General Act of 1978.1 OIG is headed by an Inspector
General (IG) who is appointed by the President of the United States, with the advice and
consent of the United States Senate. Serving with the IG in the immediate office is a Deputy
Inspector General. OIG performs independent and objective reviews of Treasury programs and
operations, except for those of the Internal Revenue Service (IRS), and keeps the Secretary of
the Treasury and Congress fully informed of problems, deficiencies, and the need for
corrective action. The Treasury Inspector General for Tax Administration (TIGTA) performs
audit and investigative oversight related to IRS.

OIG is organized into four divisions: (1) Office of Audit (OA), (2) Office of Investigations (OI),
(3) Office of Counsel, and (4) Office of Management.

          OA performs and supervises audits, attestation engagements, and evaluations. The
          Assistant Inspector General for Audit has two deputies. One deputy is primarily
          responsible for performance audits, and the other deputy is primarily responsible for
          financial management and information technology audits. OA staff are located in
          Washington, DC, and Boston, Massachusetts.

          OI performs investigations and conducts proactive initiatives aimed at detecting and
          preventing fraud, waste, and abuse in Treasury programs and operations. OI also
          manages the Treasury OIG Hotline System to facilitate reporting of allegations involving
          programs and activities under the auspices of the Department. The Assistant Inspector
          General for Investigations is responsible for the supervision and conduct of all
          investigations relating to the Department’s programs and operations and performs
          integrity oversight reviews within select Treasury bureaus. The Office of Investigations
          is located in Washington, DC.

          The Office of Counsel (1) processes all Freedom of Information Act/Privacy Act
          requests and administrative appeals on behalf of OIG; (2) processes all discovery
          requests for information held by OIG; (3) represents OIG in administrative Equal
          Employment Opportunity and Merit Systems Protection Board proceedings;
          (4) conducts ethics training and provides ethics advice to OIG employees and ensures
          OIG compliance with financial disclosure requirements; (5) reviews proposed legislation
          and regulations relating to the Department; (6) reviews and issues IG subpoenas;
          (7) reviews and responds to all Giglio requests for information about Treasury personnel
          who may testify in trials; and (8) provides advice to all components within the OIG on
          procurement, personnel, and other management matters and on pending OIG audits and
          investigations.

          The Office of Management provides a range of services designed to maintain the OIG
          administrative infrastructure. These services include asset management; budget
          formulation and execution; financial management; information technology; and
          officewide policy preparation, planning, emergency preparedness, and reporting for
          OIG. The Assistant Inspector General for Management is in charge of these functions.

1
    5 U.S.C. app. 3.


                  Treasury Office of Inspector General Semiannual Report – March 2007                1
                       OVERVIEW OF OIG AND TREASURY


     As of March 31, 2007, OIG had 115 full-time staff. OIG’s fiscal year 2007
     appropriation was $17.0 million.

OIG Values
     The values of OIG include producing high-quality products that are accurate, timely,
     relevant, and responsive to the needs of decision makers. OIG strives to ensure
     integrity, independence, objectivity, proficiency, and due care in performing its work.
     OIG promotes teamwork and open communication among its organizational
     components and encourages and rewards its workforce for innovation, creativity,
     dedication, and productivity. Finally, OIG fosters an environment of respect, equal
     opportunity, and diversity among its workforce.

About Treasury
     The mission of Treasury is to promote the conditions for prosperity and stability in the
     United States and encourage prosperity and stability in the rest of the world. Organized
     into bureaus and offices, Treasury encompasses a wide range of programs and
     operations. Currently, Treasury has approximately 109,000 full-time equivalent (FTE)
     staff. Approximately 92,900 are employed by IRS and approximately 16,100 are
     employed by other Treasury bureaus and offices.

Treasury Bureaus

     The Alcohol and Tobacco Tax and Trade Bureau is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     The Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     The Bureau of the Public Debt borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     The Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     The Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.




             Treasury Office of Inspector General Semiannual Report – March 2007               2
                        OVERVIEW OF OIG AND TREASURY

      The Internal Revenue Service (IRS) is the nation's tax collection agency and administers
      the Internal Revenue Code.

      The U.S. Mint designs and manufactures domestic bullion, and foreign coins, as well as
      commemorative medals and other numismatic items. The Mint also distributes U.S.
      coins to the Federal Reserve Banks and maintains physical custody and protection of
      the nation's gold and silver assets.

      The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      The Office of Thrift Supervision (OTS) regulates all federal and many state-chartered
      thrift institutions, which include savings banks and savings and loan associations.

Treasury Offices

      The Departmental Offices (DO) formulates policy and manages Treasury operations.

      The Office of Terrorism and Financial Intelligence (TFI) uses Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats. TFI is headed by an Under Secretary and includes two major
      components: the Office of Terrorist Financing and Financial Crime (TFFC) and the
      Office of Intelligence and Analysis (OIA). An Assistant Secretary oversees each of
      these offices.

      •   TFFC is responsible for integrating FinCEN, the Office of Foreign Assets Control
          (OFAC), and the Treasury Executive Office for Asset Forfeiture (TEOAF). OFAC
          administers and enforces economic and trade sanctions based on U.S. foreign policy
          and national security goals against targeted foreign countries, terrorists,
          international narcotics traffickers, and those engaged in activities related to the
          proliferation of weapons of mass destruction. TEOAF administers the Treasury
          Forfeiture Fund, the receipt account for the deposit of nontax forfeitures made by
          IRS Criminal Investigation (IRS-CI) and the Department of Homeland Security, TFFC
          also works closely with IRS-CI to enforce laws against terrorist financing and money
          laundering, including the Bank Secrecy Act (BSA).

      •   OIA is responsible for the receipt, analysis, collation, and dissemination of foreign
          intelligence and foreign counterintelligence information related to the operation and
          responsibilities of Treasury.

      The Office of Management is responsible for the Department’s internal management
      and policy in the areas of budget, planning, human resources, information and
      technology management, financial management and accounting, procurement, and
      administrative services to DO. It is headed by the Assistant Secretary for Management



              Treasury Office of Inspector General Semiannual Report – March 2007                 3
                  OVERVIEW OF OIG AND TREASURY

and Chief Financial Officer (CFO). The Office of DC Pensions, which is within the Office
of Management, makes federal benefit payments associated with District of Columbia
retirement programs for police officers, firefighters, teachers, and judges.

The Office of International Affairs advises on and assists in formulating and executing
U.S. international economic and financial policy. Its responsibilities include developing
policies and guidance in the areas of international financial, economic, monetary, trade,
investment, bilateral aid, environment, debt, development, and energy programs,
including U.S. participation in international financial institutions.

The Exchange Stabilization Fund is used to purchase or sell foreign currencies, hold
U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
foreign governments. All Exchange Stabilization Fund operations require the explicit
authorization of the Secretary of the Treasury.

Community Development Financial Institutions Fund expands the availability of credit,
investment capital, and financial services in distressed urban and rural communities.

Federal Financing Bank provides federal and federally assisted borrowing, primarily to
finance direct agency activities such as construction of federal buildings by the General
Services Administration and meeting the financing requirements of the U.S. Postal
Service.




        Treasury Office of Inspector General Semiannual Report – March 2007             4
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

The IG annually provides the Secretary of the Treasury with his perspective on the most
serious management and performance challenges facing the Department in accordance with
the Reports Consolidation Act of 2000. Among other things, the Secretary must include these
challenges in the Department’s annual Performance and Accountability Report. As discussed in
a memorandum to Secretary Paulson dated October 16, 2006, the IG noted that while some
progress had been made, the following previously identified challenges continued to represent
significant risks to the Department.

•   Corporate Management This is an overarching management challenge. Treasury needs to
    provide effective corporate leadership in order to resolve serious bureau and program office
    deficiencies that adversely affect the performance of Treasury as a whole. In particular,
    Treasury needs to assert strong leadership and supervision over IRS to resolve the
    longstanding material weaknesses and system deficiencies that hamper the timely and
    reliable information necessary to effectively manage IRS operations. In addition, while
    progress has been made, the Department has not fully implemented a corporate-level
    control structure to ensure that capital investments are properly managed, information
    about government operations and citizens is adequately secured, and financial resources
    used by Treasury can be linked to its operational results. The increasing emphasis on
    agencywide accountability envisioned in the management reform legislation of the past
    decade and the President’s Management Agenda has underscored the need for effective
    corporate management at Treasury. With nine bureaus and many program offices, Treasury
    is a highly decentralized organization. As such, Treasury management should ensure
    consistency, cohesiveness, and economy among all bureaus and program offices in
    achieving Treasury’s goals and objectives.

    As we discussed in the October 2006 memorandum, the Department’s senior leadership
    has asserted more direct and substantive involvement in developing and implementing
    Treasury-wide polices and initiatives across a number of fronts. Also, the Deputy Secretary
    had issued a memorandum requiring that internal control programs (programs to ensure
    accountability and promote effective management and stewardship) be included in all fiscal
    year 2007 senior leadership performance plans. In the future, this type of direct
    involvement by senior leadership needs to be maintained so that progress continues.

•   Management of Capital Investments Treasury needs to better manage large acquisitions of
    mission-critical systems and other capital investments. In the past, serious problems have
    been identified with the recently cancelled Treasury Communications Enterprise
    procurement, Treasury’s HR Connect system, and the Treasury and Annex Repair and
    Restoration project. During 2006, new problems were brought to light with BSA Direct,
    and the Web-based Electronic Fraud Detection System (Web EFDS). Specifically, in July
    2006, after nearly 2 years in development and $15 million spent, FinCEN terminated its
    contract for the storage and retrieval component of BSA Direct after significant concerns
    were raised about schedule delays and project management. IRS had similar problems with
    Web EFDS, a system costing more than $20 million intended to prevent fraudulent refunds.
    In April 2006, after a significant delay, IRS stopped all development activities for Web
    EFDS. IRS also was unable to use Web EFDS to prevent fraudulent refunds during
    processing-year 2006. TIGTA reported that without Web EFDS, more than $300 million in
    fraudulent refunds may have been allowed. The Deputy Secretary has emphasized the need



               Treasury Office of Inspector General Semiannual Report – March 2007            5
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    to better manage information technology capital investments to the heads of Treasury
    bureaus, noting that this is a responsibility of all senior management and not just that of
    the Chief Information Officer (CIO). Involvement and accountability at the top is a critical
    factor to ensure the successful implementation of systems.

    At the end of this semiannual reporting period, we had audits in progress looking at the
    acquisition planning and project management for the failed BSA Direct component as well
    as the ongoing redesign and modernization of the Treasury Foreign Intelligence Network
    (TFIN). The Department identified the TFIN redesign and modernization as its top priority
    capital investment for fiscal year 2007.

•   Information Security Despite some notable accomplishments, the Department needs to
    improve its information security program and practices to achieve compliance with the
    Federal Information Security Management Act of 2002 (FISMA) and Office of Management
    and Budget (OMB) requirements. In the past, we reported that Treasury’s systems
    inventory was not accurate, complete, or consistently reported. During the past year, the
    Department overcame this weakness in its security program by providing direction to the
    bureaus in developing a Department-wide inventory of information systems. Although the
    Department still needs to implement additional actions to further improve the system
    inventory, we believe the inventory is substantially complete and generally conforms to
    applicable requirements. Nevertheless, we reported that information security deficiencies at
    Treasury, in the aggregate, constitute substantial noncompliance with FISMA.
    Improvements are needed in a number of areas, such as certification and accreditation,
    tracking corrective actions, and incident response. Also, during 2006 OMB required
    agencies to perform specific actions to protect certain personally identifiable information
    (PII). Treasury faces significant challenges to meet these requirements. In this regard, the
    Department needs to ensure that security controls pertaining to PII are addressed Treasury-
    wide. In a July 2006 memorandum to Treasury bureaus, the Department provided
    implementation guidance and required bureaus to identify their specific actions taken and
    planned, including dates, to address weaknesses in security controls pertaining to PII.

    During this semiannual period, we reported that the Department had not implemented
    sufficient safeguards to ensure the protection of agency sensitive information, including
    PII. We also reported on disaster recovery exercises conducted by the Mint and BEP noting
    some areas where improvement was needed. These reports are discussed in more detail
    later in this document.

•   Linking Resources to Results Because the Department has not fully developed and
    incorporated managerial cost accounting (MCA) into its business activities, the Department
    cannot adequately link financial resources to operating results. This inhibits comprehensive
    program performance reporting and meaningful cost benefit analyses of the Department’s
    programs and operations. MCA involves the accumulation and analysis of financial and
    nonfinancial data, resulting in the allocation of costs to organizational pursuits such as
    performance goals, programs, activities, and outputs, and should be a fundamental part of
    a financial/performance management system. In response to a critical Government
    Accountability Office (GAO) report on MCA at Treasury, the Department developed a high-
    level MCA implementation plan. This plan focuses on (1) clarifying and reaffirming the



                Treasury Office of Inspector General Semiannual Report – March 2007                6
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

    Department’s MCA policy for all bureaus; (2) identifying MCA needs across the
    Department; (3) ensuring that MCA needs are linked to the Department’s strategic plan,
    budget, and performance measures; (4) identifying gaps between Department and bureau
    needs and existing MCA capabilities; and (5) developing plans to eliminate these gaps.
    During this semiannual reporting period, the Department initiated a number of actions
    under the MCA implementation plan.

•   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement Treasury
    faces unique challenges in carrying out its responsibilities under BSA and the USA Patriot
    Act to prevent and detect money laundering and terrorist financing. To effectively prevent
    and detect financial crimes and terrorist financing, it is necessary to have (1) strong control
    environments at financial institutions to ensure that business is conducted with reputable
    parties and that large currency transactions and suspicious activities are properly and
    timely reported to Treasury; (2) strong federal and state regulatory agencies that examine
    and enforce BSA and USA Patriot Act requirements at financial institutions; and (3) strong
    analytical capacity to identify, and refer to law enforcement, leads provided through
    reports filed by financial institutions. While FinCEN is the Treasury bureau responsible for
    administering BSA, it relies on other Treasury and non-Treasury agencies to enforce
    compliance with the Act’s requirements. OFAC, the Treasury office responsible for
    administering U.S. foreign sanction programs, also relies on other Treasury and non-
    Treasury agencies to ensure compliance with OFAC requirements. Past audits and
    Congressional hearings, however, have identified serious regulatory gaps in the detection
    of or timely enforcement action against financial institutions for BSA and related violations.
    In an attempt to improve compliance and address some of these gaps, Treasury created
    TFI through which FinCEN and OFAC now report. In addition, FinCEN, beginning in 2004,
    (1) created a compliance office to improve BSA oversight and coordination with financial
    institution regulators and (2) entered into memoranda of understanding (MOU) with the
    federal banking regulators, IRS, and most states to enhance communication and
    coordination.

    Given the importance of this management challenge to the Department’s mission, we will
    continue to devote a significant portion of our audit resources to this management
    challenge. During this semiannual period, we issued a report on OFAC’s civil penalties
    program, noting that OFAC did not complete action on many penalty cases before the
    statute of limitation expired. This report is discussed in more detail later in this document.

In response, Secretary Paulson issued a memorandum dated November 13, 2006, to the IG
providing information on the actions completed in fiscal year 2006 and actions planned for
fiscal year 2007 to address the five challenges. We will assess the Department’s progress in
addressing these challenges when we issue our next management challenges memorandum in
October 2007.




                Treasury Office of Inspector General Semiannual Report – March 2007                  7
                   S IGNIFICANT A UDITS AND E VALUATIONS

FINANCIAL MANAGEMENT

Financial Audits

Consolidated Financial Statements

An Independent Public Accountant (IPA), working under OIG supervision, issued an unqualified
opinion on Treasury’s fiscal years 2006 and 2005 consolidated financial statements. The audit
identified three reportable conditions related to (1) financial management practices at IRS, (2)
electronic data processing controls and information security programs over financial systems,
and (3) controls over transactions and balances related to the International Assistance
Programs. The reportable condition related to financial management practices at IRS is
considered a material weakness. The IPA also reported that the Department’s financial
management systems are not in substantial compliance with the Federal Financial
Management Improvement Act of 1996. In addition, the audit identified two other instances of
reportable noncompliance with laws and regulations related to section 6325 of the Internal
Revenue Code and to the FISMA. Also, two instances of possible Antideficiency Act violations
were reported. Management indicated that it concurred with the findings included in the
report. (OIG-07-010)

Also, in connection with its audit of Treasury’s consolidated financial statements, the IPA
issued a management letter that identified other matters where Treasury could improve the
quality and efficiency of financial reporting. Specifically, (1) succession planning must be
implemented immediately; (2) financial reporting standards for Department component entities
should be consistent; (3) the Exchange Stabilization Fund budgetary accounting methodology
should be clarified; (4) financial reporting processes and procedures at the Department level
need improvement to enable timely preparation and issuance of the Department’s financial
statements and Performance and Accountability Report; (5) OMB Circular No. A-123
implementation procedures, transactions testing, and reporting need improvement;
(6) intragovernmental transactions and activities reconciliation procedures should be
strengthened; (7) management and maintenance of supporting documentation for performance
measures should be improved; (8) policies and procedures for the identification and monitoring
of deferred maintenance on a Department-wide basis should be implemented; (9) backup tapes
for the Treasury Information Executive Repository (TIER) system and CFO Vision Production
Servers should be stored in an environmentally secure and stable environment; (10) disaster
recovery procedures for TIER and CFO Vision should be established; (11) segregation of duties
between TIER developers and system administrators needs to be implemented; (12) TIER user
access controls should be strengthened; and (13) procedures for timely removal of user
accounts of former employees and contractors should be consistently followed. Management
indicated that it concurred with the findings included in the report. (OIG-07-029)

Other Financial Audits

The Chief Financial Officers Act (CFO Act), as amended by the Government Management
Reform Act of 1994 (GMRA), requires annual financial statement audits of Treasury and OMB-
designated entities. In this regard, OMB has designated IRS for annual financial statement



               Treasury Office of Inspector General Semiannual Report – March 2007            8
                            S IGNIFICANT A UDITS AND E VALUATIONS

audits. The financial statements of certain other Treasury component entities are audited
pursuant to other requirements, or due to their materiality to Treasury’s consolidated financial
statements. The following table shows audit results for fiscal years 2006 and 2005.

                                         Treasury Audited Financial Statements and Related Audits

                                                   Fiscal Year 2006 Audit Results                   Fiscal Year 2005 Audit Results
                                                                                  Other                                      Other
                                                             Material                                      Material
    Entity                                      Opinion                         Reportable   Opinion                       Reportable
                                                             Weakness                                      Weakness
                                                                                Conditions                                 Conditions
    GMRA/CFO Act Requirements
      Treasury Department                         UQ              1                 2          UQ              1               1
      Internal Revenue Service (A)                UQ              4                 1          UQ              4               2
    Other Required Audits
      Bureau of Engraving and Printing            UQ              0                 1          UQ              0               1
      Community Development Financial
                                                  UQ              0                 2          UQ              0               0
        Institutions Fund
      Office of DC Pensions                       UQ              0                 0          UQ              0               0
      Exchange Stabilization Fund                 UQ              0                 0          UQ              0               0
      Federal Financing Bank                      UQ              0                 0          UQ              0               0
      Office of the Comptroller of the
                                                  UQ              0                 1          UQ              0               0
        Currency
      Office of Thrift Supervision                UQ              0                 0          UQ              0               0
      Treasury Forfeiture Fund                    UQ              0                 1          UQ              1               1
      Mint
          Financial Statements                    UQ              0                 1          UQ              0               1
        Custodial Gold and
                                                   UQ              0                0          UQ              0               0
          Silver Reserves
    Other Audited Accounts that are Material to Treasury Financial Statements
      Bureau of the Public Debt
          Schedule of Federal Debt (A)            UQ              0                 0          UQ              0               0
         Government Trust Funds                   UQ              0                 0          UQ              0               0
      Financial Management Service
          Treasury Managed Accounts               UQ              0                 0          UQ              0               0
        Operating Cash of the Federal
                                                  UQ              0                 1          UQ              0               1
         Government
    Management Initiated

          FinCEN                                  UQ              0                 0          UQ              1               0
    UQ    Unqualified opinion.
    (A)   Audited by the Government Accountability Office.


The fiscal year 2006 IPA audits of Treasury component entities, performed under our
supervision, identified the following reportable conditions:

•   BEP’s controls over inventory held by others (OIG-07-004),
•   The Mint’s controls over financial accounting and reporting (OIG-07-022),
•   Community Development Financial Institutions Fund’s controls over accounting for
    software in development and grants monitoring (OIG-07-011),
•   FMS’s effectiveness of computer controls (OIG-07-015),
•   OCC’s information technology general controls over financial systems (OIG-07-020),
•   Treasury Forfeiture Fund’s recording and accounting for indirect overhead expenses of the
    national seized property contractor to the line item level (OIG-07-027)




                       Treasury Office of Inspector General Semiannual Report – March 2007                                              9
                        S IGNIFICANT A UDITS AND E VALUATIONS

We also issued management letters that identified other matters that were not required to be
included in the reports on the fiscal year 2006 (1) financial statements of the Mint
(OIG-07-023), Federal Financing Bank (OIG-07-012), and Treasury Forfeiture Fund
(OIG-07-028); (2) FMS’s Schedule of Non-Entity Assets, Non-Entity Costs and Custodial
Revenue (OIG-07-014); and (3) FMS’s Schedule of Non-Entity Government-Wide Cash
(OIG-07-019).

Federal Financial Management Improvement Act of 1996

The following instances of noncompliance with the Federal Financial Management
Improvement Act of 1996 (FFMIA) were reported in connection with the audit of the
Department’s fiscal year 2006 consolidated financial statements. All instances relate to IRS.
Because of the length of time that it will take to implement IRS’s system modernization effort,
many of the planned timeframes exceed the 3-year resolution period specified in FFMIA. As a
result, and in accordance with FFMIA, IRS received a waiver from this requirement from OMB.
The current status of these FFMIA noncompliances, including progress in implementing
remediation plans, will be evaluated as part of the audit of Treasury’s fiscal year 2007
financial statements.

                                                                                                  Fiscal Year
                                                                                                                    Type of
Entity                                         Condition                                             First
                                                                                                                 Noncompliance
                                                                                                   Reported
         Financial management systems do not provide timely and reliable information for
         financial reporting and preparation of financial statements. IRS had to rely
                                                                                                                 Federal Financial
         extensively on resource-intensive compensating procedures to generate reliable
                                                                                                                   Management
IRS      financial statements. IRS also lacks a subsidiary ledger for its unpaid assessments        1997
                                                                                                                    Systems
         and lacks an effective audit trail from its general ledger back to subsidiary detailed
                                                                                                                  Requirements
         records and transaction source documents for material balances such as tax
         revenues and tax refunds.
                                                                                                                 Federal Financial
         Deficiencies were identified in information security controls, resulting in increased                     Management
IRS      risk of unauthorized individuals being allowed to access, alter, or abuse proprietary      1997            Systems
         IRS programs and electronic data and taxpayer information.                                               Requirements
         Material weaknesses were identified related to controls over unpaid tax                                Federal Accounting
IRS                                                                                                 1997            Standards
         assessments, tax revenue, and refunds.
         Financial management system cannot routinely accumulate and report the full                            Federal Accounting
IRS                                                                                                 1998
         costs of its activities.                                                                                   Standards
         General ledger system lacks an effective audit trail to detailed records and
                                                                                                                Standard General
IRS      transaction source documents for material balances such as tax revenues and tax            1997
                                                                                                                     Ledger
         refunds.


Attestation Engagement

An IPA, working under OIG supervision, issued an unqualified opinion that the assertions
pertaining to the BPD Trust Fund Management Branch schedules for selected trust funds for
the period October 1, 2005, to September 30, 2006, are fairly stated. These schedules relate
to the functions performed by the Trust Fund Management Branch as custodian of the
following monies and investments: Federal Supplementary Medical Insurance Trust Fund,
Federal Hospital Insurance Trust Fund, Highway Trust Fund, Airport and Airway Trust Fund,
Hazardous Substance Superfund Trust Fund, Leaking Underground Storage Tank Trust Fund,



                     Treasury Office of Inspector General Semiannual Report – March 2007                                         10
                   S IGNIFICANT A UDITS AND E VALUATIONS

Oil Spill Liability Trust Fund, Harbor Maintenance Trust Fund, Inland Waterways Trust Fund,
and the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund. The attestation
examination did not identify any deficiencies in internal control or instances of reportable
noncompliance with laws and regulations. (OIG-07-005)



INFORMATION TECHNOLOGY

Evaluation of Treasury’s Compliance with OMB M-06-16

                                           In June 2006, OMB issued M-06-16, Protection of
We determined that Treasury had not        Sensitive Agency Information, which contains
implemented sufficient safeguards to ensureOMB’s guidance and recommendations pertaining to
the protection of agency sensitive         sensitive agency information, including PII. Agencies
information, including PII.                were required to take actions to ensure that
                                           safeguards were in place and reviewed by August 7,
2006. OMB also stated its intent to work with the IG community to review agencies’ actions.
In response to the memorandum, the President’s Council on Integrity and Efficiency/Executive
Council on Integrity and Efficiency developed a review guide and data collection instrument to
be completed by OIGs for their agencies by September 22, 2006.

We determined that Treasury had not implemented sufficient safeguards to ensure the
protection of agency sensitive information, including PII. In addition, we noted that Treasury
had not completed actions to address OMB’s recommendations in M-06-16 pertaining to
encryption, remote access, “time-out” functions, and computer readable data extracts. We
recommended that the Treasury CIO implement actions to achieve compliance with M-06-16
as well as address the four OMB recommendations included in the memorandum. The CIO
concurred with the recommendation and proposed appropriate corrective actions.
(OIG-CA-07-003)

Related Matter The Transportation, Treasury, Independent Agencies, and General Government
Appropriations Act, 2005, includes certain requirements in Title V – General Provision, Section
522, pertaining to privacy and data protection policies and procedures that are applicable to
Treasury and other agencies covered by this Act. Additionally, the Act requires our office, at
least every 2 years, to contract with an independent, third party to evaluate Treasury’s use of
information in identifiable form, evaluate Treasury’s privacy and data protection procedures,
and recommend strategies and specific steps to improve privacy and data protection
management. The first contracted review by our office was required in December 2006.

In letters dated December 8, 2006, the IG informed the appropriations committees of the
United States Senate and U.S. House of Representatives that we believed the work we did in
connection with M-06-16 provided sufficient information as to the current status of Treasury’s
privacy and data protection policies and procedures and would serve as a benchmark for
future reviews of this critical area by our office. With this review, along with a recent
assessment by a Treasury contractor of Treasury’s privacy program, we also informed the
committees that we did not see a benefit to engage an independent third-party contractor at



                 Treasury Office of Inspector General Semiannual Report – March 2007           11
                  S IGNIFICANT A UDITS AND E VALUATIONS

considerable expense to perform the review described in Section 522 for 2006. That being
said, we advised that we would monitor Treasury’s progress in establishing and maintaining
privacy and data protection policies and procedures and conduct audit work in this area as
necessary. In our letters, we also noted that pending fiscal year 2007 appropriations
legislation in the Senate included a provision to amend Section 522 to allow affected
inspectors general to conduct the biennial reviews themselves or by a contractor. As a
subsequent event, it should be noted this appropriations legislation was not enacted.

OIG Observations of Bureau Disaster Recovery Exercises Identified Several Areas
Needing Improvement

We observe select disaster recovery exercises (DRE) of information technology systems
scheduled by Treasury bureaus and offices to determine whether the disaster recovery
capability being tested is successfully demonstrated. In doing this work, we use Federal
Preparedness Circular 65, “Continuity of Operations”; NIST 800-34, “Contingency Planning
Guide for Information Technology Systems”; and OMB Circular A-130, Appendix III, “Security
of Federal Automated Information Resources,” as criteria to assess the results of the exercise.
During this semiannual period, we issued reports on three DREs, as summarized below:

•   The Mint successfully met the primary objectives of a limited-scope DRE in June 2006.
    However, we found that certain critical information technology resources had not been
    identified.

•   Although BEP met the primary objectives of a September 2006 DRE, we found that
    improvements were needed. Specifically, BEP needed to (1) establish explicit test
    objectives, (2) establish remote access, and (3) improve its DRE after-action reporting.

•   BEP met the primary objectives of an October 2006 DRE. However, we noted that a
    “warning” occurred during several of the test segments. As a result, one segment of the
    DRE could not be completed. This had been a recurring integration problem for the past
    four DREs and had not been resolved.

Mint and BEP management concurred with our findings and recommendations and had
proposed appropriate corrective actions. Because of the sensitivity of certain information in
our reports on the DREs, we designated the reports as “limited official use.” (OIG-07-002,
OIG-07-030, and OIG-07-031)

Additional Actions Needed to Improve Treasury’s System Inventory

Among other things, FISMA requires that           …we issued a report to the Treasury CIO on
(1) agencies maintain an inventory of major       additional improvements needed with
systems and (2) inspectors general perform an     Treasury’s information system inventory in
annual independent evaluation of their            the areas of system categorization and the
respective agencies’ information security         inventory review process.
program and practices. In our prior semiannual
report, we discussed the results of the 2006 independent evaluation of Treasury under FISMA,
which was performed by a contractor under our supervision. We reported that, despite notable


                Treasury Office of Inspector General Semiannual Report – March 2007             12
                   S IGNIFICANT A UDITS AND E VALUATIONS

progress, Treasury had deficiencies that, in the aggregate, constituted substantial
noncompliance with FISMA. We also noted that, as an area where Treasury improved its
information security program and practices, we now generally agreed with the Office of the
Chief Information Officer on the total number of Treasury systems.

During this semiannual period, we issued a report to the Treasury CIO on additional
improvements needed with Treasury’s information system inventory in the areas of system
categorization and the inventory review process. We recommended that the CIO ensure that
his or her office (1) review the system inventory periodically and in a timely manner,
(2) address the completeness and categorization of information systems during compliance
reviews, and (3) properly document compliance reviews. Management generally concurred
with our findings and recommendations. (OIG-CA-07-001)




PROGRAMS AND OPERATIONS

OFAC Did Not Complete Hundreds of Enforcement Actions Within the Statute of
Limitations

                                             During fiscal years 2002 through 2005, OFAC’s
 …due to a 5-year statute of limitations on  Civil Penalties Division took enforcement action
 imposing penalties, the Civil Penalties     against approximately 3,800 violators and
 Division failed to complete enforcement     collected $10.32 million in civil penalties.
 actions during this period for 295 cases. The
                                             Nonetheless, due to a 5-year statute of limitations
 potential penalty assessments for these 295 on imposing penalties, the Civil Penalties Division
 cases totaled $3.87 million.                failed to complete enforcement actions during this
                                             period for 295 cases. The potential penalty
assessments for these 295 cases totaled $3.87 million. In three other cases, the expiration or
impending expiration of the statute of limitations adversely affected the amount of penalties
assessed and collected. Out of $3.79 million in potential penalties for these cases, which
involved multiple violations, $2.70 million was not pursued because the statute of limitations
expired for some of the violations. After applying mitigating factors, Civil Penalties settled for
about $0.29 million of the $1.09 million of assessed penalties on these three cases. Two
cases related to frequent illegal commercial exportations to Cuba. The third involved a travel
company sponsoring prohibited trips.

Several factors contributed to the failure to take timely penalty action. Civil Penalties Division
managers were hampered in monitoring and handling penalty cases by the lack of sufficient,
accurate, and reliable information about case status and disposition. In addition, OFAC
management cited the following: (1) OFAC resources were not adequate to address the
number of sanction programs and violations, which increased from 21 to 29 programs (as of
fiscal year 2004) and by a reported 900 cases over a 4-year period; (2) administrative law
judges were not always available when needed to conduct required hearings; and (3) the time
other divisions or agencies took to review the cases reduced the time available for the Civil
Penalties Division to complete its work. We believe these additional factors could be alleviated



                 Treasury Office of Inspector General Semiannual Report – March 2007            13
                 S IGNIFICANT A UDITS AND E VALUATIONS

if managers had sufficient, accurate, and reliable data from an improved case database to use
in making more informed case management decisions.

We recommended that OFAC take the necessary steps to assure that enforcement actions are
completed prior to expiration of the statute of limitations. These steps include (1) improving
the civil penalty case database, (2) developing and implementing new policies and procedures
and associated monitoring systems and reports to ensure that penalty cases are adjudicated
timely and within the statute of limitations period, (3) implementing an effective case tracking
mechanism to ensure that penalty cases are being addressed by the appropriate OFAC offices
in a timely manner, and (4) ensuring that resources needed to process penalty cases are
available in a timely manner.

The OFAC Director generally agreed with the recommendations and has taken, or planned,
actions that generally meet the intent of our recommendations. However, the Director stated
in his response that the purpose of the penalty program is to maximize enforcement and
compliance and not to assess the maximum penalty allowed by statute. We agree that
maximizing revenue should not be a goal of OFAC’s penalty program. He also asserted that
OFAC used a reasoned decision-making process to close cases approaching the statute of
limitations deadline without imposing sanctions or taking other enforcement action. We did not
see evidence during our review to support this assertion. (OIG-07-032)

FedSource Needs to Improve Compliance with Defense Procurement Requirements

As required by the National Defense Authorization Act for Fiscal Year 2006 (NDAA), we
audited, in coordination with the Department of Defense (DoD) OIG, fiscal year 2005 Treasury
franchise fund procurements made on behalf of DoD. That year, FedSource, a component of
the Treasury franchise fund and the principal focus of our audit, issued approximately 19,700
contract actions consisting of task orders and modifications on behalf of DoD valued at
$405.1 million. Our audit was initiated shortly after GAO issued a report that was critical of
FedSource contracting assistance to DoD.

We found that FedSource issued policies and
                                                  Because deficient conditions were found by
procedures that are responsive, if implemented
                                                  this audit, NDAA requires that DoD OIG
as described, to address GAO’s recommend-
                                                  and our office conduct a second concurrent
dations. Among other things, FedSource (1)
                                                  review of Treasury’s fiscal year 2006
established policy in July 2005 pertaining to
                                                  procurements on behalf of DoD. A
ethical conduct and proper use of contract
                                                  determination of noncompliance by this
vehicles; (2) established an acquisition
                                                  second review…could result in a significant
performance measurement program in August         curtailment by DoD in procuring property
2005 to measure, evaluate, and improve            and services through Treasury.
management practices in the delivery of
contract administration services to FedSource
customers; and (3) established a standard checklist in July 2005 for documenting task order
files.

Our review of 64 task orders, which were awarded before the above actions were taken,
found conditions that were consistent with GAO’s findings. Specifically, we found that


               Treasury Office of Inspector General Semiannual Report – March 2007              14
                     S IGNIFICANT A UDITS AND E VALUATIONS

FedSource did not adequately compete all tested task orders. The task order files also lacked
complete documentation required by federal procurement regulations and FedSource policies
and procedures. We noted that 1 task order was incrementally (partially) funded, but lacked
the required clause limiting the government’s payment for and the contractor’s provision of
services to the amount that was funded. We also found that many task orders lacked a quality
assurance surveillance plan, or the plans were inadequate. Additionally, Contracting Officer's
Technical Representative designation letters were not consistent with quality assurance
surveillance plan instructions with respect to who was responsible for performing quality
assurance surveillance.

For DoD procurements made through 21 FedSource task orders, DoD OIG identified instances
where incorrect DoD appropriations were used and where the bona fide need rule was
potentially violated. These deficiencies represent potential violations of the Antideficiency Act.
While DoD OIG’s findings were principally directed at DoD, they point to a need for FedSource
to identify the due diligence it performs when accepting orders to help prevent the use of
incorrect appropriations. Accordingly, we reported that FedSource should work with DoD in
establishing a common set of indicators that it should use to determine which procurement
requests require more intense FedSource scrutiny. Furthermore, in accordance with a recent
DoD directive, FedSource needs to ensure that the task orders for severable services (services
that are continuing and recurring in nature) have periods of performance that do not exceed
1 year from the date of accepting DoD’s order for the services.

We made five recommendations in our report. Treasury management concurred with three
recommendations and partially concurred with two recommendations. However, the corrective
actions stated by management, if implemented as described, were generally responsive to the
intent of the recommendations. The partial concurrences related to certain procurements cited
as potential violations of the Antideficiency Act and the extent of due diligence necessary on
the part of FedSource.

Because deficient conditions were found by this audit, NDAA requires that DoD OIG and our
office conduct a second concurrent review of Treasury’s fiscal year 2006 procurements on
behalf of DoD. A determination of noncompliance by this second review, which was in
progress at the end of the reporting period, could result in a significant curtailment by DoD in
procuring property and services through Treasury. (OIG-07-26)

Control Weaknesses Need To Be Addressed at BEP’s Western Currency Facility

…while BEP has taken corrective actions to  In an audit performed at the Western Currency
                                            Facility, we concluded that failure to follow existing
address issues identified following the theft,
additional steps should be taken to enhance internal control procedures facilitated an October
internal controls.                          2004 theft by an employee who removed at least
                                            $5,000 of $50 Federal Reserve Notes slated for
destruction. In addition, while BEP has taken corrective actions to address issues identified
following the theft, additional steps should be taken to enhance internal controls.

BEP management concurred with our six recommendations to address the issues identified in
the report, and stated that Western Currency Facility employees are being held accountable for


                   Treasury Office of Inspector General Semiannual Report – March 2007          15
                   S IGNIFICANT A UDITS AND E VALUATIONS

failure to adhere to policies and procedures and that controls have been strengthened. BEP
also implemented a pilot program that reduces the number of times mutilated currency is
handled, provides for 100 percent verification, and maintains a clear chain of custody through
destruction. A final decision regarding the new approach is expected by July 2007, by which
time revised policies and procedures will be issued and tracking and accountability documents
will be modified. (OIG-07-035)

OTS Could Further Strengthen Its Ability to Assess Risks to Thrifts Following
Emergencies

Following Hurricanes Katrina and Rita, we conducted          We found that OTS guidance did not
an audit to determine how prepared OTS was to                specifically address obtaining critical
address the needs of thrifts and their customers             financial information from affected
during and immediately after the two hurricanes and          thrifts in a consistent manner, nor did
OTS’s plans and abilities to assess and manage               the guidance specify timeframes for
increased risks to thrifts following emergencies. OTS        analyzing the effects of the hurricanes on
determined that Hurricanes Katrina and Rita had              the affected thrifts’ financial condition.
posed risks to thrifts in the Gulf Coast Region. Short-
term risks were primarily to the thrifts’ operations, while long-term risks were primarily to the
thrifts’ financial condition. OTS evaluated these risks by obtaining assessments from thrift
management and subsequently performing analyses and examinations. OTS identified 19
thrifts as affected. On average, it took OTS 13 days after hurricane landfall to obtain
information on liquidity, 68 days to obtain information on capital, 62 days to obtain earnings-
related information, and 50 days to obtain information on asset quality.

We found that OTS guidance did not specifically address obtaining critical financial information
from affected thrifts in a consistent manner, nor did the guidance specify timeframes for
analyzing the effects of the hurricanes on the affected thrifts’ financial condition. We also
found areas where OTS could improve its operational risk assessment of affected thrifts
following emergencies as OTS lacked continuity of operations plans for field offices in two of
its four regions and OTS had difficulty establishing communication with certain thrifts
following Hurricane Katrina.

In its response, OTS concurred with our recommendations. Its supervision staff in Washington
plans to work with the Regional offices to develop a structured approach for collecting critical
information from thrifts following an emergency. OTS also agreed to establish appropriate
timeframes, based on the gravity of the situation, for analyzing the effects on affected thrifts
financial condition and indicated that it has initiated efforts to develop continuity of operations
plans and maintain alternative contact information for thrift personnel. (OIG-07-034)




                Treasury Office of Inspector General Semiannual Report – March 2007                   16
                    S IGNIFICANT A UDITS AND E VALUATIONS

Few Exceptions Found With Treasury Building and Annex Repair and Restoration
Program Payments

                                          Overall, Treasury Building and Annex Repair and
Overall, TBARR payments were generally    Restoration (TBARR) program payments were
spent for the purposes and within the timegenerally spent for the purposes and within the
periods specified by Congress.            time periods specified by Congress. However, we
                                          found that the Office of Financial Management
inappropriately charged TBARR appropriations accounts for two payments totaling $68,358.
One of the payments should have been charged to a Treasury Working Capital Fund account;
the other payment should have been charged to an OFAC account. The Acting CFO concurred
with our recommendation to correct the accounting records for these errors. (OIG-07-033)

This is our fifth and final audit report issued in connection with various Congressional
mandates that we comprehensively audit the TBARR program. As highlighted in previous
semiannual reports to Congress, our prior audit reports addressed project planning, contract
award and administration, costs associated with delays in employee moves during
renovations, and building code compliance of the renovation.

FMS Policy to Charge Agencies for Plastic Card Network Costs Has Been Developed
But Not Yet Implemented

Treasury and bureau management are             …in July 2004, FMS’s Assistant
responsible for implementing concurred audit   Commissioner of Federal Finance approved a
recommendations made by our office. We         policy for charging agencies for PCN costs in
select recommendations from prior OIG audit    limited circumstances… no participating
reports and verify whether management has      federal agencies have been charged for PCN
taken corrective action that is responsive to  costs.
the intent of the selected recommendations.
During this semiannual reporting period, we completed a corrective action verification related
to a recommendation in our report Government-Wide Financial Management Services:
Additional Control and Oversight Needed to Reduce Costs and Improve the Plastic Card
Network (OIG-03-088; July 11, 2003).

FMS implemented the Plastic Card Network (PCN) in 1987 to expedite the collection and
deposit of revenues from federal agencies’ credit and debit card sales. Any federal agency that
accepts such cards in the sale of goods and services to the public can elect to join the PCN. In
our July 2003 report, we recommended that the FMS Commissioner and the Fiscal Assistant
Secretary jointly consider having PCN member agencies pay their own transaction fees and
charges for PCN services. We estimated that implementation of this recommendation could
yield a monetary benefit to the federal government of nearly $800 million, the amount of
FMS’s projected PCN costs over 5 years. In October 2004, FMS closed the recommendation
in the Department’s audit resolution tracking system, indicating that corrective action had
been taken.

Our corrective action verification found that in July 2004, FMS’s Assistant Commissioner of
Federal Finance approved a policy for charging agencies for PCN costs in limited


                 Treasury Office of Inspector General Semiannual Report – March 2007           17
                 S IGNIFICANT A UDITS AND E VALUATIONS

circumstances that would be effective with the next rebid of PCN services scheduled for fiscal
year 2005. This did not occur until August 2006 and had not yet been implemented at the
time of our corrective action verification. Therefore, no participating federal agencies have
been charged for PCN costs. We also found that FMS was considering a different approach for
administering the collection services it provides federal agencies. If implemented, this new
approach would effectively supersede the July 2004 policy. Under the new approach, FMS
would provide agencies, at no charge, collection services, including PCN services, that it has
determined it can provide most cost-effectively. FMS would charge an agency for collection
services only if the agency elected to use services considered less efficient. A timeline has
been established for conducting a pilot test of the approach, but we noted that an overall
timeline for completing the approach design, finalizing agreements with agencies, and
obtaining the pilot test results has not been established.

While we concluded that FMS met the intent of our recommendation to consider charging
agencies for PCN costs, we reported that it is too early to assess FMS’s planned new
approach. We will continue to monitor FMS’s development of this approach and will conduct
follow-up audit work as appropriate. (OIG-07-016)




               Treasury Office of Inspector General Semiannual Report – March 2007         18
                           S IGNIFICANT I NVESTIGATIONS

IMPROPER PAYMENTS INITIATIVE

As highlighted in our last semiannual report, in July 2006, OI initiated a project to proactively
identify potentially fraudulent federal benefit and assistance payments warranting further
investigation. This investigative initiative directly supports the President’s Management
Agenda, which specifically identified the erroneous disbursement of federal payments as a key
problem to be addressed under one of the Agenda’s five governmentwide initiatives, Improved
Financial Performance. OI continues to work jointly with other investigative agencies to
identify and investigate potential violators. These agencies include the OIGs of the
Departments of Veterans Affairs (VA) and Homeland Security (DHS), the Railroad Retirement
Board (RRB), the Social Security Administration (SSA), the U.S. Postal Service (USPS), and the
Office of Personnel Management (OPM). Also participating in this effort is the Defense
Criminal Investigative Service (DCIS).

The Initiative has resulted in the conviction of six individuals who unlawfully obtained federal
payments from civilian or military retirement, disability, or survivor programs. In addition, the
initiative has resulted in the arrest of 10 individuals, with total restitution exceeding
$165,000, and recoveries exceeding $46,000. Since its inception, the initiative has identified
more than 90 potential violators, who obtained over $6 million in federal payments. During
this period, OI opened 57 cases having a total of 65 potential offenders and approximately
$4.5 million in potential losses. Details on convictions, guilty pleas, indictments, and arrests
during this period resulting from the initiative are as follows:

                              A joint Treasury OIG and DCIS investigation revealed that Stanley
 …Stanley Foster, Jr.,        Foster, Jr., unlawfully received military retirement benefits initially
 unlawfully received          intended for his father, who died in August 1989. Foster had
 military retirement          forged certificates of eligibility and received an estimated
 benefits that were           $168,000 in federal payments. In October 2006, Foster was
 initially intended for       arrested in Hyattsville, Maryland, pursuant to an arrest warrant
 his father, who died in      issued by the United States District Court for the Eastern District
 August 1989.                 of New York. He was subsequently indicted and pled guilty to one
                              count of theft of government property. Foster is scheduled for
                              sentencing on May 25, 2007.

                              Another joint Treasury OIG and DCIS investigation disclosed that
 Harris defrauded the
                              Simpson Harris III unlawfully received his father’s military
 federal government
                              retirement benefit payments after his father’s death. Harris
 of an estimated
 $182,241 from 1992           defrauded the federal government of an estimated $182,241 from
 to 2006, having              1992 to 2006, having forged his deceased father’s signature
 forged his deceased          when cashing the benefit checks. The federal payments were
 father’s signature           processed through FMS. Harris was arrested in November 2006
 when cashing the             and, on February 1, 2007, pled guilty in New York State Court
 benefit checks.              (Kings County) to one count of attempted forgery. On March 7,
                              2007, Harris was sentenced to 6 months of incarceration and 5
                              years of supervised probation.




                 Treasury Office of Inspector General Semiannual Report – March 2007               19
                              S IGNIFICANT I NVESTIGATIONS


                               A joint Treasury OIG and VA OIG investigation revealed that
…Kathleen Cook                 Kathleen Cook unlawfully received VA payments initially intended
unlawfully received
                               for her mother, who died in June 2003. It was determined that
VA payments initially
                               after the mother’s death an estimated $38,495 was improperly
intended for her
                               paid into her bank account. Cook then unlawfully accessed those
mother, who died in
                               funds, withdrawing more than $34,000 in VA benefits through a
June 2003.
                               series of debit card and over-the-counter transactions. In
                               September 2006, Cook was indicted on a Georgia State theft
                               violation. On January 18, 2007, she pled guilty and was
                               sentenced to 10 years of supervised probation and ordered to pay
                               restitution in the amount of $34,495.

                               A joint Treasury OIG and OPM OIG investigation confirmed that
…Thomas B. Hatchell            Thomas B. Hatchell fraudulently obtained Civil Service Retirement
fraudulently obtained          benefits that were initially intended for his mother, who died in
Civil Service                  October 1997. OPM determined that since the mother’s death, an
Retirement benefits            overpayment of $156,429 was made via electronic funds transfer
that were initially            to her account. Hatchell then wrote several checks to himself
intended for his               against the account to illegally access the funds. On January 29,
mother….                       2007, Hatchell pled guilty in the United States District Court for
                               the Eastern District of Virginia to one count of theft of
                               government funds. Sentencing is scheduled for April 27, 2007.

From the time of their         Joint Treasury OIG and VA OIG investigations revealed that Hope
mothers’ deaths in 2003,       Byrd and Cleophas Kimbrough, Jr., residents of Mobile County,
until the payments were        Alabama, received, possessed, and converted to their own use VA
discontinued in 2006,          benefit checks that were sent to their respective deceased
Byrd improperly received       mothers. From the time of their mothers’ deaths in 2003, until the
approximately $22,000          payments were discontinued in 2006, Byrd improperly received
and Kimbrough                  approximately $22,000 and Kimbrough improperly received
improperly received            approximately $12,000. In January 2007, Byrd and Kimbrough
approximately $12,000.         were separately indicted by a federal grand jury in the Southern
                               District of Alabama each on10 counts of mail fraud. In March
                               2007, Byrd and Kimbrough entered guilty pleas in the United
                               States District Court for the Southern District of Alabama. On
                               March 20, 2007, Byrd pled guilty to one count of mail fraud.
                               Byrd’s sentencing is scheduled for June 18, 2007. On March 22,
                               2007, Kimbrough pled guilty to one count of mail fraud.
                               Kimbrough’s sentencing is scheduled for June 15, 2007.

                               A joint Treasury OIG and SSA OIG investigation resulted in the
…the subject allegedly         November 2, 2006, arrest of a District of Columbia resident
negotiated the Treasury-
                               relating to the fraudulent receipt and negotiation of his deceased
issued checks over a 3-year
                               mother’s social security checks. The investigation determined that
period and fraudulently
                               the subject allegedly negotiated the Treasury-issued checks over a
received over $33,000 in
                               3-year period and fraudulently received over $33,000 in federal
federal funds.


                Treasury Office of Inspector General Semiannual Report – March 2007            20
                               S IGNIFICANT I NVESTIGATIONS

                                funds. A criminal complaint was filed and the warrant was issued
                                in the Superior Court of the District of Columbia, resulting in the
                                defendant’s arrest for first degree theft. While pending further
                                judicial action and the pursuit of an additional suspect, the
                                defendant remains in custody on other unrelated violations.

                                A joint investigation by Treasury OIG, SSA OIG, and the Baltimore
  ...the subject allegedly      County Police Department resulted in the March 15, 2007, arrest
  negotiated over $13,000 in    of a Baltimore, Maryland, resident. She was charged with violating
  Treasury checks by forging    Maryland Code, Theft-Scheme: $500 Plus, for the fraudulent
  her deceased mother-in-       receipt and negotiation of her deceased mother-in-law’s social
  law’s signature.              security benefits. The joint investigation revealed that the subject
                                allegedly negotiated over $13,000 in Treasury checks by forging
                                her deceased mother-in-law’s signature.

The subject allegedly used      A joint investigation by Treasury OIG, SSA OIG, U.S. Immigration
fraudulent identification       and Customs Enforcement, and U.S. Postal Inspection Service
documents to assume the         resulted in the March 28, 2007, arrest of a North Carolina
identity of another             resident, who was earlier indicted by a federal grand jury in the
individual and apply for        Eastern District of North Carolina on charges of theft of
SSA benefits.                   government funds and aggravated identity theft. The subject
                                allegedly used fraudulent identification documents to assume the
                                identity of another individual and apply for SSA benefits. Using
                                the fraudulently obtained identity, he allegedly collected over
                                $26,000 in improper federal benefits.

                                On March 27, 2007, two individuals were indicted by a federal
  One subject was
                                grand jury in the Northern District of Ohio for the theft of
  charged…for her alleged
                                government funds after two joint Treasury OIG and RRB OIG
  negotiation of Treasury
                                investigations revealed that the individuals had unlawfully received
  checks issued in the name
                                federal payments. One subject was charged with the theft of
  of her deceased mother.
                                government funds for her alleged negotiation of Treasury checks
  The other subject was
                                issued in the name of her deceased mother. Since her mother’s
  charged… for her
                                death, in November 1994, the subject allegedly assumed the
   unlawful receipt of RRB
                                identity of her mother and unlawfully obtained RRB widow-
  unemployment
                                annuitant benefits totaling more than $186,000. In the second
  payments….
                                indictment, the other subject was charged with the theft of
                                government funds for her unlawful receipt of RRB unemployment
                                payments totaling more than $7,000, relating to her alleged filing
                                of false unemployment claims.




                  Treasury Office of Inspector General Semiannual Report – March 2007            21
                               S IGNIFICANT I NVESTIGATIONS


 Treasury OIG assisted          Treasury OIG assisted SSA OIG with the arrest of two fugitive
 SSA OIG with the arrest        felons in South Carolina for their improper receipt of, or
 of two fugitive felons in      application for, SSA benefit payments. The two individuals were
 South Carolina for their       arrested pursuant to the issuance of arrest warrants for violating
 improper receipt of or         conditions of probation imposed under state law, making them
 application for benefit        ineligible to receive such benefits. Under SSA’s Fugitive Felon
 payments.                      Program, the matter will be referred to the local SSA office for
                                overpayment calculation and suspension of benefits.

 …a USPS employee was           A joint Treasury OIG and USPS OIG investigation resulted in the
 participating in physically    December 19, 2006, indictment by a federal grand jury in the
 arduous outside                District of South Carolina on one count of workers’ compensation
 employment activities,         fraud. The investigation revealed that a USPS employee was
 while at the same time         participating in physically arduous outside employment activities,
 claiming a disability from     while at the same time claiming a disability from a back injury and
 a back injury…                 certifying to the Office of Workers’ Compensation Program that
                                she had not received any wages while claiming disability. The
                                employee received an estimated $100,000 in workers’
                                compensation benefits.



OTHER SIGNIFICANT INVESTIGATIONS

Senior-Level Treasury Official Resigns After Found Gambling While on Duty

                                              A Treasury OIG investigation determined that a
  …it was also discovered that the Treasury   senior-level official of Treasury’s Community
 official knowingly, and without authority,   Development Financial Institution Fund engaged in
 used his Citibank Government Travel charge   sports gambling activities while on duty and
 card to withdraw $1,800 in cash advances….   misused government property (phones and
                                              computers) in furtherance of his illicit activities.
The investigation also disclosed that the Treasury official knowingly, and without authority,
used his Citibank Government Travel charge card to withdraw $1,800 in cash advances,
which were used for personal expenses unrelated to official government travel. The United
States Attorney’s Office was briefed on the results of the investigation but declined to initiate
a criminal prosecution against the official. The investigation was subsequently referred to
Treasury management for appropriate administrative action, and termination of the official was
proposed. Upon receiving a notice of proposed removal, the official resigned from his position
with Treasury effective November 11, 2006.




                 Treasury Office of Inspector General Semiannual Report – March 2007             22
                            S IGNIFICANT I NVESTIGATIONS


Treasury OIG Participates in Metro Richmond Identity Theft Task Force Operation

During November 2006, Treasury OIG, in conjunction             The operation resulted in the
with other federal, state, and local law enforcement           indictment of 51 defendants on
agencies, participated in the arrest of several individuals    federal charges.
suspected of identity theft and related fraud offenses in
the Metro-Richmond, Virginia, area. The operation resulted in the indictment of 51 defendants
on federal charges of identity theft and other related charges. The charges stem from
“Operation Reconcile,” an initiative led by the Richmond Identity Theft Task Force, which was
established in 2004 to deal with identity theft and fraud in and around Richmond. This task
force, which Treasury OIG had a lead role in creating, consists of 14 federal, state, and local
law enforcement agencies that operate out of the U.S. Postal Inspection Service facility in
Richmond.

Joint Fraud Investigation Leads to Indictment

                                             In October 2006, as a result of a joint Treasury
 In October 2006, as a result of a joint     OIG and U.S. Secret Service investigation, a
 Treasury OIG and U.S. Secret Service        Maryland resident was indicted by a federal grand
 investigation, a Maryland resident was      jury in the District of Columbia. In the three-count
 indicted by a federal grand jury in the     indictment, it was alleged that the defendant
 District of Columbia.                       attempted to defraud the Treasury Department
                                             Federal Credit Union when he tried to negotiate
two fictitious obligations (in the amounts of $2.9 million and $5.5 million) at two of the credit
union’s locations in Washington, DC. The defendant was indicted on one count of bank fraud
and two counts of fictitious obligations. When the case went to trial in April 2007, the jury
was unable to reach a unanimous verdict, resulting in a mistrial. Further disposition of this
case is pending.

Maryland Resident Convicted for Identity Fraud

A joint investigation by Treasury OIG and local law
                                                           The investigation determined that
enforcement agencies resulted in the conviction of
                                                           Jackson used fraudulently obtained and
Maryland resident Shalonda Jackson related to her
                                                           compromised identities to obtain credit
involvement in an identity fraud scheme. The
                                                           and file false income tax returns.
investigation determined that Jackson used fraudulently
obtained and compromised identities to obtain credit
and file false income tax returns. Jackson was convicted in both Prince George’s County and
Charles County, Maryland. On October 27, 2006, Jackson was sentenced to 5 years of
incarceration (with all but 6 months suspended), 5 years of supervised probation, and ordered
to pay restitution of $40,592. Upon her release from incarceration in Prince George’s County,
Jackson was turned over to Charles County where on February 23, 2007, she was sentenced
to 50 years of incarceration with 39 years suspended to be followed by 5 years of supervised
probation.




                Treasury Office of Inspector General Semiannual Report – March 2007             23
                            S IGNIFICANT I NVESTIGATIONS

Maryland Resident Convicted and Sentenced for Theft

                                           A Treasury OIG investigation revealed that
 Tanjudeen negotiated an altered Blue CrossMaryland resident Ayinde Giwa Tanjudeen
 Blue Shield check for $16,644 at a financial
                                           negotiated an altered Blue Cross Blue Shield check
 institution….                             for $16,644 at a financial institution in Ports
                                           Town, Maryland. After determining that the
intended payee was FMS, Tanjudeen was arrested by Treasury OIG. In January 2007,
Tanjudeen pleaded guilty to two counts of theft in the Circuit Court for Prince George’s
County. He was sentenced to 10 years of incarceration (with all but 8 months suspended) and
was ordered to pay restitution of $16,644 to Bank of America.

Proposed Debarments of Two Treasury Contractors

A Treasury OIG investigation revealed that a
former Treasury contractor knowingly created          A Treasury OIG investigation revealed that a
false invoices relating to his relocation expenses,   former Treasury contractor knowingly created
which resulted in excessive, erroneous charges        false invoices relating to his relocation
to the government. A second investigation             expenses, which resulted in excessive,
revealed that another former Treasury contractor      erroneous charges to the government.
submitted false certification in connection with
his contract with Treasury. The results of both
investigations were referred to Treasury’s Office of the Procurement Executive, which
proposed debarments in January 2007 and February 2007, respectively. If debarred, the
former contractors would be excluded from future contracting with the executive branch of
the federal government for a period not exceeding 3 years. It is expected that decisions for
both debarments will be made during the next reporting period.


The following are updates on investigative activities from previous semiannual reports.

Former BEP Employee Sentenced in the Theft of Partially Printed $100 Federal Reserve
Notes

As previously reported, Treasury OIG, with the assistance of BEP investigators and the U.S.
Secret Service, and the Federal Bureau of Investigation, conducted an investigation following
the discovery of incomplete $100 Federal Reserve Notes that had entered commerce and were
subsequently recovered from the Philadelphia Federal Reserve Bank and various casinos in
Delaware, New Jersey, and West Virginia. The investigation revealed that the partially printed
$100 notes were stolen from BEP’s Eastern Currency Facility in Washington, DC, and were in
the possession of David Faison, who was at the time a stock control recorder at BEP. Faison
was arrested in August 2006 and pled guilty on September 6, 2006, in the U.S. District Court
for the District of Columbia, to one count of possession of tools and materials for
counterfeiting purposes. Following his arrest, Faison retired from BEP.




                 Treasury Office of Inspector General Semiannual Report – March 2007                 24
                         S IGNIFICANT I NVESTIGATIONS

Update: On February 26, 2007, Faison was sentenced to 9 months of incarceration, 3 years
of supervised release, and ordered to pay restitution of $37,200.

Former BEP Employee Convicted of a Scheme to Defraud the Federal Employee
Workers’ Compensation Program

As previously reported, Treasury OIG, the Department of Labor OIG, and the Federal Bureau of
Investigation jointly investigated the fraudulent receipt of workers’ compensation by former
BEP employee Sherman Berry. The investigation determined that Berry, who had been
receiving workers’ compensation since approximately March 1992, submitted fraudulent
documentation in support of his claim and fraudulently received over $270,000 in an
extensive workers’ compensation fraud scheme. In February 2006, Berry was indicted by a
federal grand jury in the District of Columbia on three counts of making false statements to
obtain federal employees’ compensation, three counts of wire fraud, and one count of making
false statements.

Update: On February 1, 2007, in the U.S. District Court for the District of Columbia, a jury
returned a guilty verdict on all seven counts. Berry remains in custody pending his sentencing,
which is scheduled for May 4, 2007.

Three Maryland Residents Sentenced in Bank Fraud Scheme

As reported previously, Treasury OIG, as a member of the Baltimore Financial Fraud Task
Force, participated in an investigation that led to the conviction of Cleveland Kilgore, Eric
Wiggins, and Donna Spencer. All three were convicted of crimes arising from a conspiracy to
defraud Bank of America through unauthorized use of PII of legitimate account holders in
California. The investigation revealed that Kilgore, Wiggins, and Spencer obtained account
holders’ bank account numbers and balances, as well as their names, addresses, and driver’s
license numbers, which was then used to manufacture fraudulent identification documents
bearing the names and addresses of the account holders, with photographs of themselves or
their associates. The three individuals fraudulently obtained approximately $268,930 from
Bank of America branches in Maryland, Virginia, North Carolina, and Florida. Charges that they
were convicted of include bank fraud, aggravated identity theft, conspiracy, and aiding and
abetting.

Update: In December 2006, Kilgore and Wiggins were sentenced in the U.S. District Court for
the District of Maryland. Kilgore was sentenced to 149 months of incarceration, followed by 5
years of supervised release. Wiggins was sentenced to 45 months of incarceration, followed
by 5 years of supervised release. In March 2007, Spencer was sentenced to 31 days of
incarceration, 2 years of supervised release, 12 months of home detention with electronic
monitoring, and 50 hours of community service. All three defendants were ordered to pay
restitution in the total amount of $268,930.




               Treasury Office of Inspector General Semiannual Report – March 2007           25
                         S IGNIFICANT I NVESTIGATIONS

Individual Sentenced for Defrauding the Federal Emergency Management Agency

As previously reported, Jeffrey Rothschild was arrested and pled guilty in the U.S. District
Court for the District of Columbia to a three-count criminal information charging him with bank
fraud, mail fraud, and money laundering relating to his involvement in a scheme to defraud the
Federal Emergency Management Agency of more than $100,000 in relief funds intended for
victims of Hurricanes Katrina and Rita. In addition to the disaster relief fraud, the joint
investigative effort by Treasury OIG, the DC Metro Area Fraud Task Force, the U.S. Postal
Inspection Service, the U.S. Secret Service, and the Department of Homeland Security OIG
revealed that Rothschild used compromised or fraudulent identities in additional credit card
fraud and check-kiting schemes.

Update: On February 5, 2007, Rothschild was sentenced to 102 months of incarceration and
36 months of supervised release. He was also ordered to pay restitution of $129,139, which
will be paid to the victims of his fraud schemes, including the federal government. In addition,
Rothschild was ordered to forfeit a 2005 Mazda automobile and barred from computer or
Internet access while incarcerated.

District of Columbia Resident Sentenced for Fraudulently Obtaining Hurricane
Relief Aid

As previously reported, District of Columbia resident Charles Washington pled guilty in the
U.S. District Court for the District of Columbia to a false statement charge relating to the
fraudulent filing of a federal application for Hurricane Katrina disaster assistance. In his
application for financial aid, Washington falsely claimed that he was renting and living in a
single-family residence in New Orleans, Louisiana, during the Hurricane Katrina disaster. He
further claimed that he had damage to his home and lost personal property as a result of the
hurricane. As a result of his fraudulent claim, Washington was issued three Treasury checks
totaling $14,749.

Update: On November 7, 2006, Washington was sentenced to 10 months of incarceration, 3
years of supervised probation, 100 hours of community service, and ordered to pay restitution
of $4,358.

Chicago Resident Convicted of Bank Fraud

As previously reported, Treasury OIG, in conjunction with the U.S. Secret Service,
commenced an investigation in September 2003 concerning the alleged unauthorized use of
the Treasury Seal and alleged forging of the signature of the Treasury Secretary. Further
investigative activity, including the execution of a search warrant at the Chicago residence of
Carey Portman, resulted in Portman’s arrest and indictment for his alleged involvement in
schemes to defraud financial institutions and various individuals by fraudulently obtaining loans
or attempting to negotiate counterfeit or falsely altered checks.

Update: In an amended seven-count indictment, Portman was charged with bank fraud and
possessing and uttering a falsely altered security. On November 20, 2006, Portman was found



               Treasury Office of Inspector General Semiannual Report – March 2007              26
                          S IGNIFICANT I NVESTIGATIONS

guilty on all seven counts in a jury trial in the U.S. District Court for the Northern District of
Illinois, Eastern Division. Sentencing is scheduled for June 8, 2007.

Four Individuals Involved in Identify Theft and Bank Fraud Scheme Sentenced

As previously reported, Treasury OIG worked jointly with other federal, state, and local law
enforcement agencies on an investigation of a complex bank fraud scheme wherein the
participants created counterfeit checks by using names, identification numbers, and bank
account numbers stolen from a number of victims, and used the routing codes assigned to six
different financial institutions to legitimize the checks. The checks were used to purchase a
variety of merchandise, including jewelry, electronics, and furniture. For his part in this
scheme, John Caulder, of Richmond, Virginia, pled guilty in the U.S. District Court for the
Eastern District of Virginia in August 2006 to conspiracy, bank fraud, and aggravated identity
theft charges. At the same time, his mother, Susan Caulder, pled guilty to obstruction of
justice. In July 2006, his sister, Katharine Caulder Staton, and an associate, Heather Nicole
Weston, pled guilty to conspiracy to commit bank fraud and aggravated identity theft.

Update: In November 2006, John Caulder was sentenced to 129 months of incarceration and
5 years of probation; Weston was sentenced to 65 months of incarnation and 5 years of
probation; and Staton was sentenced to 57 months of incarceration and 5 years of probation.
The three were ordered to pay $238,951 in restitution to 52 identified victims. Susan Caulder
was sentenced to 5 months of incarceration and 5 months of home detention.

Former Hamilton Bank Executives Ordered to Pay Restitution

As previously reported, Treasury OIG, in conjunction with the Federal Deposit Insurance
Corporation (FDIC) OIG, conducted an investigation that led to the indictment and conviction
of three former Hamilton Bank executives – Eduardo Masferrer, former Chief Executive Officer
of Hamilton Bancorp and Hamilton Bank, Juan Carlos Bernace, former President and Director
of Hamilton, and John Jacobs, Senior Executive of Hamilton – for their participation in a
scheme to fraudulently inflate the reported results of operations and financial condition of
Hamilton Bank and defraud the investing public and bank/securities regulators. In 2005, in the
U.S. District Court for the Southern District of Florida, Bernace and Jacobs pled guilty to
securities fraud. In addition, Jacobs pled guilty to obstruction of an OCC examination. Bernace
and Jacobs were each sentenced to 28 months of incarceration. A May 2006 jury trial found
Masferrer guilty of obstruction of an OCC examination, conspiracy, wire fraud, defrauding a
financial institution, false statements, and securities fraud. He was sentenced to 30 years of
incarceration.

Update: On October 20, 2006, Masferrer, Bernace, and Jacobs were ordered to make
restitution in the aggregate amount of $14,546,569 during a restitution hearing in the U.S.
District Court for the Southern District of Florida. In addition, Masferrer was ordered to make
further restitution of $17,233,345, of which $16,127,414 is to be made to FDIC, and
$1,106,020 is to be made to an insurance company.




                Treasury Office of Inspector General Semiannual Report – March 2007                  27
                        S IGNIFICANT I NVESTIGATIONS

FinCEN Employee Suspended for Misuse of the Government Travel Card

As previously reported, a Treasury OIG investigation disclosed that a FinCEN program manager
used a government-issued travel card for personal charges of $2,635 between April and
August 2004. In response to a referral for administrative action, FinCEN management
proposed a 10-day suspension.

Update: The proposed suspension was mitigated and the FinCEN employee served a 5-day
suspension without pay in October 2006.




              Treasury Office of Inspector General Semiannual Report – March 2007        28
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Treasury OIG Ranked Highest in Employee Satisfaction and Engagement

Treasury OIG ranked first out of 222 federal agency subcomponents for best places to work in
the federal government in 2006, according to the Partnership for Public Service and American
University’s Institute for the Study of Public Policy Implementation. Released in April 2007,
the list reflects the responses of more than 221,000 randomly selected federal employees
who completed the Office of Personnel Management’s 2006 Federal Human Capital Survey.
The list compares agencies in 10 categories: employee skills/mission match, strategic
management, teamwork, effective leadership, performance based rewards and advancement,
training and development, support for diversity, pay and benefits, family friendly culture and
benefits, and work/life balance. Treasury OIG ranked in the top ten for 7 categories including:
first in employee skills/mission, first in teamwork, fourth in effective leadership, first in
performance based awards and advancement, first in training and development, eighth in
family friendly culture and benefits, and first in work/life balance.

Treasury OIG Hosts Ukrainian Officials

On November 1, 2006, Inspector General Harold Damelin, Counsel to the IG Rich Delmar,
Assistant Inspector General for Audit Marla Freedman, and Assistant Inspector General for
Investigations Nick Swanstrom met with two officials of the Trade and Economic Mission of
the Embassy of Ukraine, Yevgen Burkat, Chief, and Volodymyr Kuchyn, Deputy Chief. We
discussed the mission of the Inspector General community and the Treasury OIG.

Treasury OIG Co-Hosts Symposium on Emerging Banking Issues

In October 2006, Treasury OIG co-hosted the Fourth Symposium on Emerging Issues in
Banking with the OIGs of FDIC, the Board of Governors of the Federal Reserve System (FRB),
and the National Credit Union Association. In what has become a premier training event for
the banking IG community, the symposium’s theme was “Protecting Consumers, Banks, and
the Nation.” Our keynote speaker was Robert Werner, former Director of FinCEN. Presenters
included Richard Brown, FDIC Chief Economist, who gave an overview of the economic
outlook; Amy Friend, OCC Assistant Chief Counsel, who discussed consumer privacy; Martin
Gruenberg, FDIC Vice Chairman, who addressed consumer protection issues; and Arthur
Murton, FDIC Director, who spoke on deposit insurance pricing and reform. The symposium
also featured a panel on Congressional perspectives with staff from the Senate Committee on
Banking, Housing, and Urban Affairs and the House Committee on Financial Services, and a
panel on emerging risks as seen by senior supervision officials from OCC, OTS, FDIC, and
FRB. Over 130 personnel from 10 agencies attended this 1½-day symposium, which was held
at FDIC’s Seidman Center in Arlington, Virginia.

2007 President’s Council on Integrity and Efficiency/GAO Financial Statement Audit
Roundtable Co-Sponsored by Treasury OIG

Deputy Assistant Inspector General for Audit Joel Grover served on an interagency team that
organized the Fourth Annual President’s Council on Integrity and Efficiency (PCIE)/GAO
Financial Statement Audit Roundtable, which was held on February 28, 2007, in Washington,



               Treasury Office of Inspector General Semiannual Report – March 2007          29
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

DC. This year, over 250 persons from the IG community, OMB, GAO, and several public
accounting firms attended the event. The purpose of the roundtable was to provide federal
financial statement auditors with information that will be beneficial to them when they
conduct fiscal year 2007 financial audits of federal agencies.

Update on the Inspectors General Auditor Training Institute

The Inspectors General Auditor Training Institute (IGATI) was created by PCIE in December
1990 as a reimbursable program within Treasury OIG. The purpose of IGATI was to provide
training for enhancing the skills, abilities, and knowledge of auditors in the federal IG
community. In prior semiannual reports, we discussed plans to consolidate IGATI with the
Inspector General Criminal Investigator Academy and the Inspector General Management
Institute to become the Inspector General Institute. This initiative was discontinued during
2006. As a result, the PCIE Audit Committee re-established IGATI to continue offering classes
through December 2006, with Treasury OIG as the cognizant agency. With the retirement of
the Director of IGATI in January 2007, the PCIE Audit Committee and Treasury OIG decided to
suspend IGATI operations effective February 2007 for the balance of fiscal year 2007. The
PCIE Audit Committee and Treasury OIG are working in conjunction with the DoD OIG to
provide introductory auditor training for the IG community for the balance of fiscal year 2007.

As we also reported previously, an IGATI Curriculum Review Board was formed in fiscal year
2005 under the leadership of Assistant Inspector General for Audit Marla Freedman to assist
the PCIE Audit Committee in achieving its strategic goal to identify and provide useful,
relevant, and cost-effective auditor training. During this semiannual reporting period, the Board
completed reviews of 6 IGATI courses, bringing to 17 the number of courses reviewed since
the Board’s inception. The Board also provided the PCIE Audit Committee a final summary
report on its activities and recommendations for improving or discontinuing the reviewed
courses. Participating in the Board were the OIGs of DoD, Interior, Commerce, Energy,
Education, Housing and Urban Development, and Treasury, the U.S. Agency for International
Development, the General Services Administration, the Environmental Protection Agency, and
SSA. Also participating was the Naval Audit Service.

Working through the Federal Audit Executive Committee, the PCIE Audit Committee is
considering various ways to support auditor training going forward.

Hurricane Katrina Fraud Task Force

Treasury OIG continued its participation in the Hurricane Katrina Fraud Task Force, whose
mission remains the detection, deterrence, prevention, and punishment of those who engage
in criminal conduct in the wake of the devastation caused by Hurricanes Katrina, Rita, Wilma,
Frances, and Jeanne. Since the task force was established in September 2005, more than 400
people have been charged for various hurricane fraud-related crimes involving millions of
dollars. These prosecutions were made possible by the cooperative investigative and audit
efforts of federal, state, and local law enforcement, including the IG community.




               Treasury Office of Inspector General Semiannual Report – March 2007            30
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

Among the cases highlighted in the Hurricane Katrina Fraud Task Force’s First Year Report to
the Attorney General was Treasury OIG’s joint investigation of Jeffrey Rothschild (described
earlier in this report), who was successfully prosecuted and sentenced in February 2007.

Federal Employees’ Compensation Act

In keeping with the objectives of the Improper Payments Initiative, OI continues to work with
OA to identify potential instances of fraud in the Federal Employees’ Compensation Act
program within Treasury. This project is part of a larger initiative being pursued by the IG
community. OI has recovered approximately $18,000 in lost workers’ compensation funds for
Treasury and, as discussed earlier in this report, an OI investigation resulted in the conviction
of a former BEP employee who submitted fraudulent documentation in support of his workers’
compensation claim and unlawfully received over $270,000 in federal payments.

OIG Participation in SSA’s Fugitive Felon Program

The SSA OIG instituted a program to identify fugitive felons, parole violators, and probation
violators who are improperly receiving SSA benefits. Working with other law enforcement
agencies throughout the United States, SSA OIG matches wanted persons files provided by
participating law enforcement agencies against SSA computer files of individuals receiving
Title XVI payments (Grants to States for Aid to the Aged, Blind, or Disabled), Title II benefits
(Federal Old-Age, Survivors, and Disability Insurance Benefits), and/or serving as
representative payees. When a match is identified, SSA OIG verifies the identity of the
individual; ensures that the arrest warrant is active; works with federal, state, or local law
enforcement to locate the person; and refers the case to the local Social Security program
office for suspension of benefits. In connection with this program, OI assisted with the March
2007 arrests of two fugitive felons in South Carolina, as discussed on earlier in this report.

OIG Participation in U.S. Secret Service–Sponsored Fraud Task Forces

The OIG continued its participation in fraud task forces sponsored by the U.S. Secret Service.
These task forces include agents and officers from a number of federal, state, and local law
enforcement agencies in the Washington, DC, and Baltimore, Maryland, metropolitan areas.
The primary objective of these task forces is to combat cases of large-scale fraud and identity
theft that transcend jurisdictions or have a significant community impact.

As described earlier in this report, a recent Baltimore Fraud Task Force investigation resulted in
the successful prosecution of three individuals for crimes arising from a conspiracy to defraud
a major financial institution. The three individuals, who fraudulently used the PII of bank
customers to withdraw funds from their accounts, were convicted on various charges,
including bank fraud and aggravated identity theft. Upon conclusion of the investigation, a
Treasury OIG Special Agent received special recognition from the U.S. Secret Service for his
efforts and contributions during this cooperative investigation.




               Treasury Office of Inspector General Semiannual Report – March 2007             31
                                 S TATISTICAL S UMMARY


Summary of OIG Activity
For the 6 Months Ended March 31, 2007


                                                                                   Number or
     OIG Activity
                                                                                  Dollar Value
                                       Office of Counsel Activity
     Regulation and Legislation Reviews                                                     8
     Instances Where Information was Refused                                                0
                                       Office of Audit Activities
     Reports Issued (Audits and Evaluations)                                               37
     Disputed Audit Recommendations                                                         0
     Significant Revised Management Decisions                                               0
     Management Decision in Which the IG Disagrees                                          0
     Monetary Benefits (Audit)
         Questioned Costs                                                          $6,866,516
         Funds Put to Better Use                                                           $0
         Revenue Enhancements                                                              $0
         Total Monetary Benefits                                                   $6,866,516
                                   Office of Investigations Activities
     Reports of Investigation                                                               6
     Closing Memorandums to File                                                           79
     Number of OIG Hotline Calls Processed                                                156
     Allegations – Total Number Processed                                                 309
     Referrals Initiated in the Reporting Period                                          191
     Case Investigations
          Open at the Start of Reporting Period                                          173*
         Opened in the Reporting Period (Includes Inquiries Converted to Cases)            82
         Closed in the Reporting Period                                                    39
         Open at the End of the Reporting Period                                          216
     Inquiries
         Open at the Start of the Reporting Period                                       111*
         Opened in the Reporting Period                                                     73
         Closed in the Reporting Period (Includes Inquiries Converted to Cases)            102
         Open at the End of the Reporting Period                                           82
     Judicial Actions
         Cases Referred for Prosecution                                                    36
         Cases Accepted for Prosecution                                                    14
         Arrests                                                                           20
         Search Warrants                                                                    0
         Indictments/Information                                                           13
         Pleas                                                                              9
         Conviction by Trial                                                                2
         Imprisonment (Months)                                                            722
         Home Detention (Months)                                                            5
         Probation (Months)                                                               798
         Community Service (Hours)                                                        150


                Treasury Office of Inspector General Semiannual Report – March 2007              32
                                    S TATISTICAL S UMMARY

     Administrative Sanctions
          Adverse Personnel Actions Taken (Investigations)                                             17
          Adverse Personnel Actions Taken (Referrals)                                                  28
          Contractor Suspensions/Debarments                                                             0
     Oversight Activities
          Quality Assessment Reviews                                                                    0
          Management Implication Reports                                                                0
          Prevention and Detection Briefings                                                            4
     Monetary Benefits
          Fines                                                                                    $300
          Restitution                                                                       $32,550,225
          Recoveries                                                                            $46,974
          Settlements                                                                                $0
          Total Monetary Benefits                                                           $32,597,499

     * Value adjusted from prior semiannual report. During this semiannual reporting period, we completed a
       verification of reportable data concurrent with the continued implementation of an improved case
       management system.



Significant Unimplemented Recommendations
For Reports Issued Prior to March 31, 2007

 Number         Date    Report Title and Recommendation Summary

OIG-03-007     10/02 INFORMATION TECHNOLOGY: Controls Over FinCEN's Law Enforcement
                     Data Need Improvement
                     The FinCEN Director should establish a formal process for approving,
                     transmitting, and maintaining system access authorization forms to reduce the
                     risks associated with granting excessive or unauthorized access privileges,
                     alterations, misunderstandings, and mishandled forms. (1 recommendation)


OIG-03-038     12/02 PROTECTING THE PUBLIC: Treasury Departmental Offices' Control Over
                     Computers Needs To Be Improved
                     DO should re-evaluate the method for reporting lost or stolen computers to
                     ensure all losses are reported to the proper authorities. This should include
                     periodic reconciliations between the CIO, Treasury Office of Security and Critical
                     Infrastructure Protection, and OIG OI. (1 recommendation)


OIG-04-035     6/04     GENERAL MANAGEMENT: Controls Over Security Need to be Improved at
                         the Bureau of Engraving and Printing
                        The BEP Director should complete plans for its Integrated Security Systems and
                        install its security upgrade systems expeditiously. (1 recommendation)




                 Treasury Office of Inspector General Semiannual Report – March 2007                          33
                              S TATISTICAL S UMMARY

OIG-05-032   3/05   TERRORIST FINANCING/MONEY LAUNDERING: Office of Terrorist Financing
                    and Financial Crimes Needs to Refine Measures for Its Performance Budget and
                    Implement a Data Collection and Reporting System
                    The Assistant Secretary for Terrorist Financing should ensure that TFFC
                    (1) implements the recently proposed performance measures, adjusted as
                    appropriate based on planned discussions with OMB, and include the measures
                    in the Department’s fiscal year 2006 budget submission; (2) implements routine
                    data collection and reporting procedures to help manage its operation and report
                    on its performance measures; (3) creates a mechanism that will allow the office
                    to regularly gather reliable data for organizations outside of Treasury; and
                    (4) develops methods to assess the completeness and reliability of its
                    performance measurement data. (4 recommendations)


OIG-05-043   8/05   INFORMATION TECHNOLOGY: Effective Security Controls Needed to
                    Mitigate Critical Vulnerabilities in Departmental Offices’ Networked
                    Information Systems
                    Due to the sensitive nature of the findings and recommendations, we designated
                    the report Limited Official Use. Four recommendations in the report have not
                    been implemented.


OIG-06-001   10/05 INFORMATION TECHNOLOGY: The TCS Disaster Recovery Exercise Was Not
                   Successful
                   The Treasury CIO should conduct a DRE during a peak utilization period that
                   includes all TCS components requiring connection to Treasury Communication
                   System in the event of a service disruption. (1 recommendation)


OIG-06-010   12/05 BILL AND COIN MANUFACTURING: The Bureau of Engraving and Printing
                   Should Ensure That Its Currency Billing Rates Include All Costs and That
                   Excess Working Capital Is Deposited in the General Fund
                   BEP should ensure that currency billing rates consider the full cost of operations,
                   including imputed costs such as the imputed cost of employee benefits paid by
                   OPM. To the extent the currency rates result in excess monies to the BEP
                   revolving fund, they should be deposited as miscellaneous receipts to the
                   Treasury general funds. (1 recommendation)


OIG-06-020   12/05 Management Letter for Fiscal Year 2005 Audit of the Federal Financing
                   Bank’s Financial Statements
                   FFB should formally document its system development methodology and
                   configuration management plans. (1 recommendation)


OIG-06-021   1/06   Management Letter for Fiscal Year 2005 Audit of the Department of the
                    Treasury's Financial Statements
                    The CFO should prepare detailed policies and operating procedures for the
                    reconciliation of the Combined Statement of Budgetary Resources to the
                    President’s Budget. The CIO should (1) develop and implement policies to require
                    storage of these backup tapes in fireproof boxes so that they will be protected in
                    the event of a disaster and (2) develop, implement, and test a continuity of

              Treasury Office of Inspector General Semiannual Report – March 2007                  34
                               S TATISTICAL S UMMARY

                      operations plan and a disaster recovery plan for the TIER and CFO Vision
                      applications. Additionally, this plan should be tested annually upon
                      implementation. (3 recommendations)


OIG-06-023     1/06   Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years
                      2005 and 2004 Financial Statements
                      TFF should (1) for all common support costs not directly traceable to individual
                      seizures, develop and implement an allocation process, and (2) pursue the
                      enhancement of the Seized Assets and Case Tracking System capabilities to
                      record and report total expenses at the asset level. (2 recommendations)


This list of OIG audit reports with unimplemented recommendations is based on information in
Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.


Summary of Instances Where Information Was Refused
October 1, 2006, through March 31, 2007

There were no such instances during this period.


Listing of Audit and Evaluation Reports Issued
October 1, 2006, through March 31, 2007

Financial Audits and Attestation Engagements

Report on the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of
September 30, 2006 and 2005, OIG-07-003, 10/23/06

Report on the Bureau of Engraving and Printing's Fiscal Years 2006 and 2005 Financial Statements,
OIG-07-004, 11/1/06

Report on the Bureau of the Public Debt Trust Fund Management Branch Schedules for Selected Trust
Funds as of and for the Year Ended September 30, 2006, OIG-07-005, 11/4/06

Report on the United States Mint's Fiscal Year 2005 Financial Statements, OIG-07-006, 11/11/06

Management Letter for the Fiscal Year 2005 Audit of the United States Mint's Financial Statements,
OIG-07-007, 11/11/06

Report on the Financial Management Service’s Fiscal Years 2006 and 2005 Schedules of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue, OIG-07-008, 11/15/06

Report on the Federal Financing Bank's Fiscal Years 2006 and 2005 Financial Statements, OIG-07-009,
11/15/06




                Treasury Office of Inspector General Semiannual Report – March 2007                  35
                                S TATISTICAL S UMMARY

Report on the Department of the Treasury's Fiscal Years 2006 and 2005 Financial Statements,
OIG-07-010, 11/15/06

Report on the Community Development Financial Institutions Fund’s Fiscal Years 2006 and 2005
Financial Statements, OIG-07-011, 11/15/06

Management Letter for Fiscal Year 2006 Audit of the Federal Financing Bank’s Financial Statements,
OIG-07-012, 11/15/06

Report on the Department of the Treasury's Special Purpose Financial Statements for Fiscal Years 2006
and 2005, OIG-07-013, 11/17/06

Management Letter for Fiscal Year 2006 Audit of the Financial Management Service's Schedule of Non-
Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-07-014, 11/20/06

Report on the Financial Management Service's Fiscal Years 2006 and 2005 Schedules of Non-Entity
Government-Wide Cash, OIG-07-015, 11/20/06

Report on the Exchange Stabilization Fund's Fiscal Years 2006 and 2005 Financial Statements,
OIG-07-017, 12/5/06

Report on the Office of D.C. Pensions' Fiscal Years 2006 and 2005 Financial Statements, OIG-07-018,
12/5/06

Management Letter for Fiscal Year 2006 Audit of the Financial Management Service's Schedule of Non-
Entity Government-wide Cash, OIG-07-019, 12/6/06

Report on the Office of the Comptroller of the Currency's Fiscal Years 2006 and 2005 Financial
Statements, OIG-07-020, 12/12/06

Report on the Office of Thrift Supervision’s Fiscal Years 2006 and 2005 Financial Statements,
OIG-07-021, 12/13/06

Report on the United States Mint's Fiscal Years 2006 and 2005 Financial Statements, OIG-07-022,
12/21/06

Management Letter for the Fiscal Year 2006 Audit of the United States Mint's Financial Statements,
OIG-07-023, 12/21/06

Report on the Financial Crimes Enforcement Network's Fiscal Year 2006 Financial Statements and
Fiscal Year 2005 Balance Sheet, OIG-07-024, 1/8/07

Report on Agreed-Upon Procedures for the Department of the Treasury's Fiscal Year 2006
Intragovernmental Activity and Balances, OIG-07-025, 1/16/07

Report on the Department of the Treasury Forfeiture Fund's Fiscal Years 2006 and 2005 Financial
Statements, OIG-07-027, 1/25/07

Management Letter for the Fiscal Year 2006 Audit of the Department of the Treasury Forfeiture Fund's
Financial Statements, OIG-07-028, 1/25/07

Management Letter for the Fiscal Year 2006 Audit of the Department of the Treasury’s Financial
Statements, OIG-07-029, 2/9/07

                Treasury Office of Inspector General Semiannual Report – March 2007                  36
                              S TATISTICAL S UMMARY

Information Technology Audits and Evaluations

INFORMATION TECHNOLOGY: The United States Mint Disaster Recovery Capability Needs
Improvement, OIG-07-002, 10/10/06

INFORMATION TECHNOLOGY: BEP Disaster Recovery Procedures Need To Be Improved, OIG-07-030,
2/9/07

INFORMATION TECHNOLOGY: The Bureau of Engraving and Printing's Disaster Recovery Capability
Needs Improvement, OIG-07-031, 2/9/07

INFORMATION TECHNOLOGY: Additional Actions Needed for System Inventory, OIG-CA-07-001,
10/2/06

INFORMATION TECHNOLOGY: Evaluation of Treasury's Compliance with OMB M-06-016,
OIG-CA-07-003, 11/3/06

Performance Audits

GOVERNMENT-WIDE FINANCIAL MANAGEMENT: FMS Policy to Charge Agencies for Plastic Card
Network Costs Has Been Developed But Not Yet Implemented (Corrective Action Verification on OIG-
03-088), OIG-07-016, 11/30/06

ACQUISITIONS: Treasury Franchise Fund Needs to Improve Compliance with Department of Defense
Procurement Requirements, OIG-07-026, 1/16/07

FOREIGN ASSETS CONTROL: Hundreds of OFAC Civil Penalty Cases Expired Before Enforcement
Action Could Be Completed, OIG-07-032, 3/2/07

GENERAL MANAGEMENT: Few Exceptions Found With TBARR Payments, OIG-07-033, 3/12/07

SAFETY AND SOUNDNESS: OTS Could Further Strengthen Its Ability to Assess Risks to Thrift
Following Emergencies, OIG-07-034, 3/28/07

BILL AND COIN MANUFACTURING: Control Weaknesses Need To Be Addressed at BEP's Western
Currency Facility, OIG-07-035, 3/30/07

Supervised Contract Audits

CONTRACT AUDIT: Crane And Company, Inc. Firm Fixed Price Proposal for Currency Paper Solicitation
BEP-06-0001, OIG-07-001, 10/5/06, $6,866,516 Q




               Treasury Office of Inspector General Semiannual Report – March 2007                 37
                                      S TATISTICAL S UMMARY

Audit Reports Issued with Questioned Costs
October 1, 2006, through March 31, 2007

                                                                                          Total
                            Category                               No. of         Questioned           Unsupported
                                                                  Reports           Costs                 Costs
      For which no management decision had been
      made by beginning of reporting period                                1        $5,566,577               0

      Which were issued during the reporting period                        1        $6,866,516               0
      Subtotals                                                            2       $12,433,093               0
      For which a management decision was made
      during the reporting period                                          0                   $0            0

               dollar value of disallowed costs                            0                   $0            0
               dollar value of costs not disallowed                                            $0            0
      For which no management decision had been
      made by the end of the reporting period                              2       $12,433,093               0

          For which no management decision was
          made within 6 months of issuance                                 1        $5,566,577               0



      The above audit was performed by the Defense Contract Audit Agency under our supervision. A “Questioned
      Cost” denotes that one or more of the following three situations exist: (1) an alleged violation of a provision of a
      law, regulation, contract, grant, cooperative agreement, other agreement or document governing the expenditure
      of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
      (3) a finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




Audit Reports Issued With Recommendations That Funds be Put to Better Use
October 1, 2006, through March 31, 2007

At the beginning of the period, there were no audit reports from prior periods pending a
management decision on recommendations that funds be put to better use. There were also
no audit reports issued during this period with recommendations that funds be put to better
use.


Previously Issued Audit Reports Pending Management Decisions (Over Six Months)
As of March 31, 2007

We have one previously issued audit report pending a management decision: CONTRACT AUDIT:
Audit Report on Technical Graphics, Inc. Fixed Price Indefinite Delivery/Indefinite Quantity Proposal
for NCD and NezGen Security Thread Substrate, Solicitation dated August 28, 2006, with
$5,566,577 in questioned costs. We are working with BEP management to resolve this matter.




                  Treasury Office of Inspector General Semiannual Report – March 2007                                        38
                            S TATISTICAL S UMMARY

Significant Revised Management Decisions
October 1, 2006, through March 31, 2007

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
October 1, 2006, through March 31, 2007

There were no management decisions this period with which the IG was in disagreement.




              Treasury Office of Inspector General Semiannual Report – March 2007       39
          R EFERENCE T O T HE I NSPECTOR G ENERAL A CT




   Reference                                      Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 32
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       8-28
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    8-28
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      33-35
                     semi-annual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           32
Section   5(a)(5)    Summary of instances where information was refused                    35
Section   5(a)(6)    List of audit reports                                                35-37
Section   5(a)(7)    Summary of significant reports                                       8-28
Section   5(a)(8)    Audit Reports with questioned costs                                   38
Section   5(a)(9)    Recommendations that funds be put to better use                       38
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           38
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    39
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           39
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                         10
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




             Treasury Office of Inspector General Semiannual Report – March 2007                  40
                                A BBREVIATIONS

BEP              Bureau of Engraving and Printing
BSA              Bank Secrecy Act
CFO              Chief Financial Officer
CIO              Chief Information Officer
DCIS             Defense Criminal Investigative Service
DO               Departmental Offices
DoD              Department of Defense
DRE              Disaster Recovery Exercise
FDIC             Federal Deposit Insurance Corporation
FFMIA            Federal Financial Management Improvement Act of 1996
FinCEN           Financial Crimes Enforcement Network
FISMA            Federal Information Security Management Act of 2002
FMS              Financial Management Service
GAO              U.S. Government Accountability Office
IG               Inspector General
IGATI            Inspectors General Auditor Training Institute
IPA              Independent Public Accountant
IRS              Internal Revenue Service
MCA              managerial cost accounting
NDAA             National Defense Authorization Action for Fiscal Year 2006
OA               Office of Audit
OCC              Office of the Comptroller of the Currency
OFAC             Office of Foreign Assets Control
OI               Office of Investigations
OIG              Office of Inspector General
OMB              Office of Management and Budget
OPM              Office of Personnel Management
OTS              Office of Thrift Supervision
PCIE             President’s Council on Integrity and Efficiency
PCN              Plastic Card Network
PII              personally identifiable information
RRB              Railroad Retirement Board
SSA              Social Security Administration
TBARR            Treasury Building and Annex Repair and Restoration
TFFC             Office of Terrorist Financing and Financial Crime
TIER             Treasury Information Executive Repository
USPS             United States Postal Service
VA               Department of Veterans Affairs
Web EFDS         Web Based Electronic Fraud Detection System




           Treasury Office of Inspector General Semiannual Report – March 2007   41
 contact us



Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650;
Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Eastern Field Audit Office
                                   Treasury OIG Hotline
408 Atlantic Avenue, Room 330      Call Toll Free: 1.800.359.3898
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax (617) 223-8651                 Treasury OIG Web Page

                                   OIG reports and other information are now
                                   available via the Internet. The address is
                                   http://www.treas.gov/offices/inspector-general
